TRUSTONE FINANCIAL VISA SIGNATURE
CARD AGREEMENT AND
TRUTH-IN-LENDING DISCLOSURE
TruStone Financial Credit Union

Effective January 1, 2021

M-132814

system. You may also use your Visa Account for online and phone advances.
Online advances may be completed through Online Banking. Phone advances
may be completed by calling Telexpress. The monthly statement will identify
the merchant, electronic terminal, or financial institution at which
transactions were made. Sales, cash advance, credit or other slips will not be
returned with the monthly statement. You will keep the copy of the slips
furnished at the time of the transaction in order to verify the monthly
statement. There is a limitation of 15 transactions per day.

Please Retain For Personal Records.
This is your Signature Card Agreement and Truth-In-Lending disclosure.
Please read and file with your records. This Agreement and disclosure,
required by law, is designed to define the guidelines concerning your
Account(s).
In this Agreement, “Agreement” means this Consumer Signature Card
Agreement. “Disclosure” means the Signature Card Account Opening
disclosure. The Account Opening Disclosure is included with this Consumer
Signature Card Agreement and is part of the agreement. In this Agreement
the words “you” and “your” mean each and all of those who apply for the
Signature Card. “We,” “us”, and “ours” mean TruStone Financial, a credit
union with its main office in Plymouth, Minnesota. “Signature Card” and
“Card” mean the Signature Card and any duplicates and renewals we issue.
“Account” means your Signature Card Line of Credit Account with the credit
union; and “Credit Union” means the Credit Union whose name appears on
this Agreement. Line of Credit may also be called “Credit Limit” in this
agreement and in your monthly Statement.

You should not reveal your PIN to anyone else. Do not write the PIN on the
card.
4. Finance Charge
Cash Advances
The FINANCE CHARGE on cash advances begins to accrue on the date you
obtain the cash advance.
The FINANCE CHARGES for a billing cycle are computed by applying the
monthly Periodic Rate to the average daily balance during the billing cycle,
which is determined by dividing the sum of the daily balances during the
billing cycle by the number of days in the cycle. Each daily balance is
determined by adding to the previous balance (the outstanding balance of
your Account at the beginning of the billing cycle), any new Cash Advances
received, and subtracting any payments received or credits as posted to your
Account, but excluding any unpaid FINANCE CHARGES.

By Keeping The Credit Card, Signing It, Using It, Or Permitting
Another To Use It, You Agree To All The Terms And Conditions Of
This Agreement.

Credit Purchases
The FINANCE CHARGES for a billing cycle are computed by applying the
monthly Periodic Rate to the average daily balance during the billing cycle,
which is determined by dividing the sum of the daily balances during the
billing cycle by the number of days in the cycle. Each daily balance is
determined by adding to the previous balance (the outstanding balance of
your Account at the beginning of the billing cycle), any new Cash Advances
received, and subtracting any payments received or credits as posted to your
Account, but excluding any unpaid FINANCE CHARGES.

1. Effect of Agreement
This Agreement is the contract which applies to all transactions on your
Account even though the sales, cash advance, or credit card slips you sign or
receive may contain different terms.
2. Responsibility
If we issue a Card to you, you agree to repay all debts and the FINANCE
CHARGE from the use of your Card and Account. You cannot transfer or
assign your Account to another person. You agree that you will not authorize
to permit any other person to use your Card. If another does use your Card
or Card number with your permission, you are responsible for charges made
by anyone else to whom you give the Card or Card number to, and this
responsibility continues until the Card is recovered. You cannot avoid
responsibility by notifying us, but we will close the Account as soon as
possible for new transactions after you request and return all Cards. If this is
a joint Account, each Account holder is both individually and jointly obligated
for all payments due under this Agreement. Your obligation to pay the
Account balance continues even though an agreement, divorce decree or
other court judgment may direct you or another person to pay the Account.
Any person using the Card is jointly responsible with you for charges he or
she makes, but if the person signs the Card, he or she becomes a party to this
Agreement and is jointly responsible for all charges on the Account, including
yours. You agree to notify us within ten (10) days of any change in your
name, residence, or mailing address.

5. Monthly Statements & Payments
If you have a balance in excess of $1.00, we will mail to you, on a date
selected by us, a periodic monthly statement listing all amounts you owe us
on this Account.
Every month you must pay, in United States dollars and drawn on a financial
institution located in the United States, at least the Minimum Payment
required within 25 days of your statement closing date as shown on your
monthly statement. You may, of course, pay more frequently, pay more than
the Minimum Payment, or pay the Total New Balance in full, and reduce the
FINANCE CHARGE by doing so. The Minimum Payment will either be 1) 2% of
your total New Balance or $15 whichever is greater, or 2) your Total New
Balance, if it is less than $15 and 3) any portion of the Minimum Payment(s)
shown on prior statement(s) which remains unpaid. In addition, at any time
your Total New Balance exceeds your Credit Limit, you must immediately pay
the excess upon our demand. Subject to applicable law, your payments may
be applied to what you owe the Credit Union in any manner the Credit Union
chooses. However, payments made in excess of the Minimum Payment, will
be applied first to the balance with the highest interest rate, then
successively to each lower interest rate until the excess payment amount is
exhausted.

3. Using the Card
You understand that the use of your Credit Card will constitute
acknowledgement of receipt and agreement to the terms of this Credit Card
Agreement. To make a purchase or cash advance, there are two alternative
procedures that you may follow. One is for you to present the Card to a
participating VISA plan merchant, to us, or to another financial institution,
and sign the sales or cash advance draft which will be imprinted with your
Card. The other is to complete the transaction by using your Personal
Identification Number (PIN) together with the Card at an Automated Teller
Machine or other type of electronic terminal that provides access to the VISA

We may accept late payments, partial, and payments marked “Payment in
Full” or similar language without waiving or losing any right to demand
payment as set forth in this Agreement.

1

TRUSTONE FINANCIAL VISA SIGNATURE
CARD AGREEMENT AND
TRUTH-IN-LENDING DISCLOSURE

Effective January 1, 2021

M-132814

gambling) you will be responsible for all amounts and charges incurred in
connection with the transaction.

You will be responsible for all matters shown on each monthly statement
unless you notify us in writing of any dispute within 60 days after statement
date in the manner required by the notice entitled “Your Billing Rights: Keep
This Notice For Future Use” included in this Agreement.

12. Returns and Adjustments
Merchants and others who honor the Card may give credit for returns or
adjustments, and they will do so by issuing a credit which will be posted to
your Account. If your credits and payments exceed what you owe us, we will
apply this credit balance against future purchases and cash advances to your
Account. If this credit balance is $1.00 or more, we will refund it per your
written request. Credit refunds will reduce your balance owed.

6. Default
You will be in default if you fail to make any Minimum Payment within 25
days after the monthly statement closing date. You will also be in default if 1)
your ability to repay us is materially reduced by a change in your
employment or financial standing or an increase in your obligation, 2) there
are bankruptcy or insolvency proceedings involving you, 3) you die, 4) you
make a misrepresentation in connection with your Account, 5) you default on
any obligation to us, under this Agreement or otherwise, you fail to comply
with the terms of this Agreement, 6) you cancel your membership with us, 7)
you exceed your Credit Limit or 8) there is an attachment, levy or
garnishment against you or your property. We have the right to demand
immediate payment of your full Account balance if you are in default. If
permitted by law, you will also be required to pay our collection expenses,
including court costs and reasonable attorney’s fees. If you are in default, we
may close your Account and cancel all Cards issued on your Account without
any notice to you.

13. Foreign Transactions
Purchases and cash advances you make in foreign countries and foreign
currencies will be billed to you in U.S. dollars. The conversion to dollars will
be made according to the operating regulations for international transactions
established by VISA International, Inc. The conversion rate billed to you may
differ from the published rate in effect on the day that you made the
transaction or it was posted to your Account. You agree to pay us the
amount as converted. The exchange rate between the transaction currency
and the billing currency used for processing international transactions is a
rate selected by VISA from the range of rates available in wholesale currency
markets for the applicable central processing date, which rate may vary from
the rate Visa itself receives or the government-mandated rate in effect for
the applicable central processing date.

7. Lost Card Notification
If you believe your Card has been lost or stolen or is being used without your
permission, you will immediately call us at (800) 862-1998. You may follow
up in writing to: TruStone Financial, PO Box 1260, Minneapolis, MN 554401260.

14. Cancellation
Any Card or other credit instrument issued to you is the property of TruStone
Financial, and must be returned to us immediately upon demand or upon
notice of cancellation or withdrawal of the Account.

8. Credit Limit
You agree not to let the Account balance exceed this approved Credit Limit
or to use your Account for a purchase or advance if your total unpaid balance
of purchases, advances, FINANCE CHARGES, and fees will exceed your Line of
Credit. We will refuse to accept any transaction on your Account which
would cause you to exceed your Line of Credit. Each payment you make on
the Account will restore your Credit Limit by the amount of payment which is
applied to the principal. You agree that we may change the Credit Limit at
any time, and we will notify you of any such change. We may, at our
discretion, increase your Credit Limit from time to time upon notifying you in
writing of the increase. You may request an increase in your Line of Credit by
calling or writing us.

You may cancel your Account at any time by notifying us in writing at the
address on your monthly statement and cutting your Card(s) in half and
returning all Cards and Convenience Checks issued on your Account. Even
after your Account is closed, you remain responsible for paying any amounts
you owe on the Account according to the terms of this Agreement. If this is a
joint Account, either of you may request that this Account be closed and we
will honor that request without us having any liability to either of you. We
can suspend your Account privileges or cancel your Account at any time, with
or without cause or notice. Your Credit Card privileges may be revoked due
to negligence. Such termination by us does not affect your obligation to pay
any amounts you owe on the Account according to the terms of this
Agreement.

9. Credit Information
At any time we may request, and you will give, credit, employment, financial
and other information to us as we deem necessary to reevaluate your
Account or credit worthiness. You authorize us to investigate your credit
standing at any time, and you authorize us to disclose information regarding
your Account to credit bureaus and other creditors who ask us about your
credit standing. We will take responsible steps to protect your rights under
Federal and State law.

15. Skip Payment Option
At the option of TruStone Financial, a minimum payment may be waived
during certain billing cycles. If such a waiver occurs, FINANCE CHARGES will
continue to apply to the Account during the skip payment billing cycle.
Beginning with the billing cycle following the skip payment, all provisions of
the Agreement shall apply.
16. Merchant Credit Authorizations
We are not responsible for the refusal of any VISA plan merchant or financial
institution to honor your Card or Convenience Check, or for goods or services
you purchase or lease using your Account, except as required by law.

10. CU Rewards Program
If you are participating in a Visa Rewards Card program, we have provided
you with a separate written disclosure stating additional Terms and
Conditions on your Rewards Card program, and that disclosure is made part
of this Agreement by this reference. A full set of Program Rules and
Conditions are available on the CURewards website at www.curewards.com.

Some purchases will require our prior authorization. We may not be able to
authorize a transaction, even if you have sufficient available credit. We will
not be liable to you if this should occur.

11. Illegal Transactions
You agree that you will not use your Card for any transaction that is illegal
under applicable federal, state or local law. Even if you use your Card for an
illegal transaction, or for any unlawful purpose (for example, online

17. Security Interest
You grant us a security interest in all individual and joint share and/or deposit
accounts you have with us now and in the future to secure your Credit Card

2

TRUSTONE FINANCIAL VISA SIGNATURE
CARD AGREEMENT AND
TRUTH-IN-LENDING DISCLOSURE

Effective January 1, 2021

M-132814

Account. You may withdraw these shares unless you are in default. When
you are in default, you authorize us to apply the balance in these accounts to
any amounts due. For example, if you have an unpaid Credit Card balance,
you agree we may use funds in your account(s) to pay any or all of the unpaid
balance. Shares and deposits in an IRA or any other account that would lose
special tax treatment under state or federal law if given as security are not
subject to the security interest you have given in your shares and deposits.

24. Your Billing Rights: Keep This Notice For Future Use
This notice tells you about your rights and our responsibilities under the Fair
Credit Billing Act.

18. Fees
Please refer to the TruStone Financial Fee Schedule for applicable fees.

In your letter give us the following information:
• Account Information: Your name and Account number.
• Dollar Amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe
what you believe is wrong and why you believe it is a mistake.

What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
• TruStone Financial, PO Box 1260 Minneapolis, MN 55440-1260.

19. Other Provisions
A. No waiver. We may choose to delay enforcing or waive any of our rights
under this Agreement without affecting our other rights. If we waive a right,
we do not thereby waive the same right in other situations.
B. Severability. If any provision of this Agreement is unenforceable, all other
provisions of this Agreement are still valid and enforceable.

You must contact us:
•Within 60 days after the error appeared on your statement.
•At least 3 business days before an automated payment is scheduled, if you
want to stop payment on the amount you think is wrong.

C. Entire Agreement. This Agreement embodies the entire agreement and
understanding between you and us and supersedes all agreements,
statements and understandings, unless otherwise expressly stated.

You must notify us of any potential errors in writing. You may call us at (800)
862.1998, but if you do we are not required to investigate any potential
errors and you may have to pay the amount in question.

D. Change in Terms of Your Account. We can change any terms of your
Account at any time. When required by law, we will provide you with
advanced notice of changes. Any changes will apply to the current balance of
your Account as well as future balances, to the extent permitted by law and
we indicate in our notice. You may choose to accept a change by keeping
your Account open or decline certain changes by closing your Account prior
to the effective date of the change and repaying any outstanding balance
according to the old terms. Your decision to keep your Account open after
any change will constitute your agreement to the change. We may sell or
otherwise transfer your Account and any amount owed by you to another
creditor at any time. If we do, this Agreement will remain in effect.

What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received
your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or
explain why we believe the bill was correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as
delinquent on that amount.
• The charge in question may remain on your statement, and we may
continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible
for the remainder of your balance.
• We can apply any unpaid amount against your Credit Limit.

20. Automatic Payment
If you have requested an automatic payment to be made from any financial
institution, all payments due will automatically be deducted from your
designated savings or checking account on or before your due date. If your
designated account does not contain sufficient funds on the payment due
date, you will be responsible for the payment and any returned items fees
associated with the payment.

After we finish our investigation, one of two things will happen:
• If we find that we made a mistake: You will not have to pay the amount in
question, or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount
in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date that payment it is due. We
may then report you as delinquent if you do not pay the amount we think
you owe.

21. Governing Law
This Agreement and your Account shall be governed by the state laws in
which your Account resides and the laws of the United States.
22. Successors & Assigns
You agree TruStone Financial may at any time assign or transfer to another
person your Account, your Account balance, on this Agreement. You will not
assign or transfer any of your rights or duties under this Agreement. This
Agreement is binding upon your heirs and legal representatives.

If you receive our explanation but still believe your bill is wrong, you must
write to us within 10 days telling us that you still refuse to pay. If you do so,
we cannot report you as delinquent without also reporting that you are
questioning your bill. We must tell you the name of anyone to whom we
reported you as delinquent, and we must let those organizations know when
the matter has been settled between us.

23. Notice To Married Wisconsin Residents
No provision of a marital property agreement, unilateral or court decree
applying to marital property adversely affects the interest of the creditor
unless the creditor, prior to the time the credit is granted, is furnished a copy
of the agreement, statement or decree or has actual knowledge of the
adverse provision when the obligation to the creditor is incurred. You are
married and this Account is being opened in the interest of your marriage or
family.

If we do not follow all of the rules above, you do not have to pay the first $50
of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased
with your Credit Card, and you have tried in good faith to correct the

3

TRUSTONE FINANCIAL VISA SIGNATURE
CARD AGREEMENT AND
TRUTH-IN-LENDING DISCLOSURE
problem with the merchant, you may have the right not to pay the remaining
amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100
miles of your current mailing address, and the purchase price must have
been more than $50. (Note: Neither of these are necessary if your purchase
was based on an advertisement we mailed to you, or if we own the company
that sold you the goods or services.)
2. You must have used your Credit Card for the purchase. Purchases made
with cash advances from an ATM or with a check that accesses your Credit
Card Account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the
purchase, contact us in writing at:
• TruStone Financial, PO Box 1260 Minneapolis, MN 55440-1260
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you own an amount and you do not pay,
we may report you as delinquent.
25. Liability For Unauthorized Use
If you notice the loss or theft of your Credit Card or a possible unauthorized
use of your Card you should write to us immediately at: TruStone Financial
PO Box 1260 Minneapolis, MN 55440-1260 or call us at (800) 862.1998. You
will not be liable for unauthorized use that occurs after you notify us of the
loss, theft or possible unauthorized use unless you were grossly negligent in
the handling of your Account or Card. You may, however, be liable for
unauthorized use that occurs before your notice to us. In any case, your
liability will not exceed $50 or the amount of unauthorized use, whichever is
less. If unauthorized withdrawals are made using your card or card number
you may be required to sign a Claim of Fraud or Forgery form. You agree to
cooperate in any investigation of unauthorized use.
26. Copy Received
You acknowledge receipt of a copy of this Agreement.

4

Effective January 1, 2021

M-132814

